                                    SOCIAL SECURITY

MEMORANDUM

Date:   December 17, 2001                                                Refer To:

To:     JoAnne B. Barnhart
        Commissioner

From:   Inspector General

Subject:   Follow-up Review of SSA’s Implementation of Drug Addiction and Alcoholism
           Provisions of Public Law 104-121 (A-01-01-11029)


        The attached final report presents the results of our audit. Our objective was to
        determine whether the Social Security Administration implemented the
        recommendations in our prior audit report entitled “Implementation of Drug Addiction
        and Alcoholism Provisions of Public Law 104-121.”

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                       James G. Huse, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



    FOLLOW-UP REVIEW OF SSA’S
     IMPLEMENTATION OF DRUG
    ADDICTION AND ALCOHOLISM
  PROVISIONS OF PUBLIC LAW 104-121

   December 2001     A-01-01-11029
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

      Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
      Review and make recommendations regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

      Independence to determine what reviews to perform.
      Access to all information necessary for the reviews.
      Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         Executive Summary
OBJECTIVE

Our objective was to determine whether the Social Security Administration (SSA)
implemented the recommendations in our prior audit report entitled “Implementation of
Drug Addiction and Alcoholism Provisions of Public Law 104-121.”

BACKGROUND

In May 2000, we issued an audit report which concluded that SSA did not identify and
terminate benefits to all beneficiaries for whom drug addiction or alcoholism (DAA) was
a contributing factor material to the finding of disability in accordance with Public Law
(P.L.) 104-121. Our review of diagnosis (DIG) codes and DAA indicators on the Master
Beneficiary Record and Supplemental Security Record identified 19,946 cases with a
DAA indicator and/or a DIG code which represented alcoholism or drug addiction.
Based upon the results of our statistical sample, we estimated that of the 19,946 cases:


   1) 3,190 individuals were incorrectly paid $38.74 million in benefits from the date
      P.L. 104-121 took effect; and

   2) 14,420 individuals did not have the correct DIG codes and/or DAA indicators on
      their records to show that DAA is not material to the finding of disability.

In our prior audit report, we recommended that SSA:

   §   Review the 19,946 cases we identified to ensure that the coding was corrected
       and the benefits were terminated where appropriate.

   §   Modify its systems so that primary DIG codes for DAA will no longer be
       accepted.

SSA agreed with these recommendations.

RESULTS OF REVIEW

Generally, SSA implemented the recommendations from our prior audit. SSA reviewed
the cases that we suggested be reviewed and it modified its systems. Of the 100 cases
in our random sample, SSA did not complete its required DAA review in only one case.
Also, we found that in 14 cases where DAA reviews were completed, SSA did not
update its systems to identify the individuals’ new disabling condition. Projecting the
results of these 14 sample cases to the population of 19,946, we estimate that
2,792 individuals do not have the correct DIG codes on their records to show that DAA



Follow-up Review of SSA’s Implementation of DAA Provisions of P.L. 104-121 (A-01-01-11029)   i
is not material to the finding of disability. Additionally, our audit showed that systems
changes made by SSA to preclude the use of primary DIG codes for DAA worked in
most cases.

CONCLUSION AND RECOMMENDATION
Overall, SSA effectively implemented our prior recommendations to ensure disability
benefits are not paid based upon DAA. However, SSA still needs to improve its efforts
for ensuring that records are updated to show the beneficiaries’ current disabling
condition. Therefore, we recommend that, when conducting the next scheduled
continuing disability review, SSA ensure DIG codes are updated to show the proper
diagnosis.

AGENCY COMMENTS
In response to our draft report, SSA agreed with our recommendation. (See
Appendix B for SSA’s comments.)




Follow-up Review of SSA’s Implementation of DAA Provisions of P.L. 104-121 (A-01-01-11029)   ii
                                                         Table of Contents
                                                                                                             Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

DAA Reviews Not Completed .................................................................................3

DAA Reviews Ongoing or Not Required..................................................................3

DAA Reviews Completed ........................................................................................4

    ·    Incorrect DAA Coding...................................................................................4

Systems Changes to Preclude Primary DIG Codes 3030 and 3040 .......................5

CONCLUSION AND RECOMMENDATION............................................................6

APPENDIX A – Sampling Methodology and Results

APPENDIX B – Agency Comments

APPENDIX C – OIG Contacts and Staff Acknowledgments




Follow-up Review of SSA’s Implementation of DAA Provisions of P.L. 104-121 (A-01-01-11029)
                                                                       Acronyms
CDR          Continuing Disability Review

CY           Calendar Year

DAA          Drug Addiction or Alcoholism

DI           Disability Insurance

DIG          Diagnosis Code

MBR          Master Beneficiary Record

NDDSS        National Disability Determination Service System

P.L.         Public Law

SSA          Social Security Administration

SSI          Supplemental Security Income

SSR          Supplemental Security Record




Follow-up Review of SSA’s Implementation of DAA Provisions of P.L. 104-121 (A-01-01-11029)
                                                                  Introduction
OBJECTIVE

Our objective was to determine whether the Social Security Administration (SSA)
implemented the recommendations in our prior audit report entitled “Implementation of
Drug Addiction and Alcoholism Provisions of Public Law 104-121.”

BACKGROUND

The Social Security Act was amended on March 29, 1996 as part of the Contract with
America Advancement Act of 1996 (Public Law 104-121) to prohibit the payment of
Disability Insurance (DI) benefits and Supplemental Security Income (SSI) payments if
Drug Addiction or Alcoholism (DAA) is material to the finding of disability. This law
required SSA to terminate DI benefits and SSI payments for individuals whose
disabilities were based on DAA. If beneficiaries timely appealed their terminations, this
                                                       1
law required SSA to conduct medical redeterminations by January 1, 1997.

In May 2000, we issued an audit report2 which concluded that SSA did not identify and
terminate benefits in accordance with Public Law (P.L.) 104-121 for all beneficiaries for
whom DAA was a contributing factor material to the finding of disability. We estimated
that 3,190 individuals were incorrectly paid $38.74 million in benefits from the date
P.L. 104-121 took effect through the date we reviewed the cases. Additionally, we
estimated that 14,420 individuals did not have the correct diagnosis (DIG) codes and/or
DAA indicators on their records to show that DAA is not material to the finding of
disability. Incorrect coding could impact SSA’s ability to identify cases affected by new
legislation, as well as to profile cases for continuing disability reviews (CDR).

In our prior audit report, we recommended that SSA:

§   Review the 10,611 SSI cases that it asserted were either properly handled or
    miscoded and apply the provisions of P.L. 104-121 where appropriate.

§   Ensure that benefits are terminated if DAA is material to the finding of disability
    when conducting the next scheduled CDR for the 6,066 DI cases in our extract.

§   Ensure that the 3,269 cases it agreed to review are completed, the coding
    corrected, and the benefits terminated where appropriate.



1
 A medical redetermination is when SSA reviews the evidence associated with the case to determine
whether the individual is disabled.
2
 SSA/Office of the Inspector General, “Implementation of Drug Addiction and Alcoholism Provisions of
Public Law 104-121,” May 2000 (A-01-98-61014)


Follow-up Review of SSA’s Implementation of DAA Provisions of P.L. 104-121 (A-01-01-11029)             1
§   Modify its systems so that primary DIG codes of 3030 and 3040 will no longer be
    accepted.3

In response to our prior report, SSA agreed with our recommendations and stated that
corrective actions had been initiated and/or completed. In their comments to our report
(dated April 17, 2000) and also in testimony to Congress on September 12, 2000, SSA
stated that it (1) had already begun the reviews on all 19,946 cases, and (2) completed
modifying its systems in August 1999 to preclude primary DIG codes of 3030 and
3040 in all cases except denials.

SCOPE AND METHODOLOGY
To accomplish our objective, we:

§   Reviewed our prior DAA audit report entitled, “Implementation of Drug Addiction and
    Alcoholism Provisions of Public Law 104-121” which was issued in final in
    May 2000.

§   Selected a random sample of 100 cases from the 19,946 DAA individuals identified
    in our prior audit.

§   Determined whether a review had been completed, the coding corrected and
    benefits terminated where appropriate for our sample cases by using the Master
    Beneficiary Record (MBR), Supplemental Security Record (SSR), National Disability
    Determination Service System (NDDSS), CDR Control File, and/or case folder.

§   Contacted SSA staff to gain an understanding of systems modifications
    implemented to preclude primary DIG codes of 3030 and 3040 in all cases except
    denials.

§   Obtained an extract from the NDDSS of all individuals whose application for
    disability benefits was approved in Calendar Year (CY) 2000 with a DIG code of
    3030, 3040 or 3050 and determined whether these or other DIG codes were on the
    beneficiaries’ MBRs or SSRs.

We conducted our follow-up audit between April and July 2001 in Boston,
Massachusetts. The entities audited were SSA’s Office of Disability and Office of
Systems Requirements. We conducted our audit in accordance with generally
accepted government auditing standards.




3
 DIG codes 3030 and 3040 are for Alcohol Substance Addiction Disorders and Drug Substance Addiction
Disorders, respectively. When implementing our recommendation, SSA implemented system edits to
preclude the use of DIG codes 3030, 3040 and also 3050 – Polysubstance Addiction Disorders.



Follow-up Review of SSA’s Implementation of DAA Provisions of P.L. 104-121 (A-01-01-11029)        2
                                                   Results of Review
Generally, SSA implemented the recommendations from our prior audit. SSA reviewed
the cases that we suggested it review and modified its systems. Our review of
100 cases found:

                                                           § a DAA review was not completed
         DAA Sample Results for Cases SSA                  in 1 case.
                Agreed to Review

                                         Not               § DAA reviews were ongoing or were
                                      Applicable           not needed in 24 cases.
                                         24
        Reviews
       Completed                                  § DAA reviews were completed in
          75
                                                  75 cases. However, in 14 of these
                                  DAA
                                Review Not
                                                  cases, the MBR/SSR was not updated
                                Completed         to reflect the beneficiaries’ current
                                     1            disabling condition. Projecting the
                                                  results of these 14 sample cases to
                                                  the population of 19,946, we estimate
that 2,792 individuals do not have the correct DIG codes on their records to show that
DAA is not material to the finding of disability.

Additionally, our audit showed that systems changes made by SSA to preclude the use
of primary DIG codes of 3030 and 3040 worked in most DAA cases.

DAA REVIEWS NOT COMPLETED

We identified one case where a required DAA review was not completed. This
beneficiary started receiving DI benefits in March of 1994 with a primary DIG code of
3030 (Alcoholism) and no review has subsequently been completed to determine
whether DAA is material to this beneficiary’s disability. SSA personnel stated they had
no explanation other than “Human Error” for why this review had not been completed.
SSA personnel informed us they “will have to secure the folder for review.”

DAA REVIEWS ONGOING OR NOT REQUIRED

Our audit identified 24 cases that either did not require a DAA review at this time or
currently had a DAA review in process by SSA. Specifically, we found that:

§   In 17 cases, the benefits had been terminated.4

§   In 3 cases, the beneficiaries met the requirements for retirement benefits.

4
 In 10 cases, benefits were terminated because of the death of the beneficiaries; and in 7 cases, benefits
were terminated for other reasons.


Follow-up Review of SSA’s Implementation of DAA Provisions of P.L. 104-121 (A-01-01-11029)               3
§     In 3 cases, SSA was in the process of conducting DAA reviews.

§     In 1 case, a DAA alert had not been worked since the beneficiary was in a non-pay
      status due to excess income since the alert was issued.

DAA REVIEWS COMPLETED

We found that SSA completed DAA reviews for 75 of our 100 sample cases.
Specifically, we found documentation in either the beneficiaries’ case folder or one of
SSA’s electronic systems showing that SSA staff had reviewed the individuals’ disabling
condition to ascertain whether DAA was a contributing factor to its finding of disability.
For example, one individual had a DIG code of 3030 (Alcohol Substance Addiction
Disorder) on her SSR at the time of our original audit. In November 2000, SSA
completed a CDR and determined that this individual’s benefits should continue based
upon a disability of “Depressive Disorder.” The DIG code on this individual’s SSR has
been updated to reflect her new disabling condition.

For our 75 sample cases that were reviewed by SSA, we found that:

      §   in 71 cases, SSA determined that DAA was not material and benefits continued
          under a new disability; and

      §   in 4 cases, SSA determined that DAA was material and the beneficiaries have
          appealed their termination decisions. These 4 cases are currently being
          reviewed by SSA’s Office of Hearings and Appeals.

Incorrect DAA Coding

For each of the 100 sample cases, in addition to determining whether a review was
completed, we determined whether the MBR or SSR had been properly updated to
reflect the individuals’ current disabling condition. In 14 cases where reviews were
completed, SSA did not update the DIG code on the MBR or SSR5 to identify the
individuals’ new disabling condition. In one case, a medical review was completed on
January 20, 2000. In this review, it was determined that disability continued based
upon Schizophrenic, Paranoid and Other Functional Psychotic Disorders which has a
DIG code of 2950. However, the new DIG code from this review was not posted to the
MBR and it is still 3040 (Drug Substance Addiction Disorder).




5
    In 11 cases the MBR had not been updated, and in 3 cases, the SSR had not been updated.


Follow-up Review of SSA’s Implementation of DAA Provisions of P.L. 104-121 (A-01-01-11029)    4
SYSTEMS CHANGES TO PRECLUDE PRIMARY DIG CODES 3030 AND 3040

In their comments to our prior audit report, SSA stated that in August 1999, staff
completed modifications to SSA’s systems to preclude primary DIG codes of 3030 and
3040 in all cases except denials. To test SSA’s systems changes, from a
CY 2000 NDDSS file containing about 1.16 million initial decisions in which benefits
were approved, we extracted all decisions with primary DIG codes of 3030, 3040 or
3050. This extract identified 17 beneficiaries6 who had received benefit payments.

In 14 of the 17 cases, the DIG codes on the MBR or SSR were not 3030, 3040 or
3050 even though the NDDSS showed these were the DIG codes initially input. Thus it
appears SSA’s systems edits worked for these 14 cases. However, in 3 of the
17 cases the DIG codes on the MBR or SSR were 3040. SSA staff reviewed these
3 cases and determined current DAA edits allowed these cases to go into current pay
status with DIG codes of 3040. As a result of this review, SSA staff wrote new systems
edits to strengthen those already in place. These new edits are being reviewed by SSA
systems staff, and, when implemented, should prevent individuals from receiving
benefit payments with DIG codes of 3030, 3040 or 3050 in the future.




6
 In 9 cases the DIG code was 3040, in 6 cases the DIG code was 3030, and in 2 cases the DIG code was
3050.


Follow-up Review of SSA’s Implementation of DAA Provisions of P.L. 104-121 (A-01-01-11029)         5
                                                  Conclusion and
                                                 Recommendation
Overall, SSA effectively implemented our prior recommendations to ensure disability
benefits are not paid based upon DAA. However, SSA still needs to improve its efforts
for ensuring that records are updated to show the beneficiaries’ current disabling
condition. Therefore, we recommend that, when conducting the next scheduled CDR,
SSA ensure DIG codes are updated to show the proper diagnosis.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendation. Specifically,
SSA agreed that the MBR and SSR should be updated to show the beneficiaries’
current disabling condition. SSA’s Office of Disability will discuss the ways in which this
can be accomplished in November 2001. (See Appendix B for SSA’s comments.)




Follow-up Review of SSA’s Implementation of DAA Provisions of P.L. 104-121 (A-01-01-11029)   6
                                         Appendices




Follow-up Review of SSA’s Implementation of DAA Provisions of P.L. 104-121 (A-01-01-11029)
                                                                                Appendix A
Sampling Methodology and Results
In order to perform our prior Drug Addiction or Alcoholism (DAA) audit1, we obtained
from the Social Security Administration (SSA) two data extracts¾one from the
Supplemental Security Record (SSR) and the other from the Master Beneficiary Record
(MBR)¾of all disabled individuals receiving disability payments with a diagnosis (DIG)
code equal to 3030 or 3040 and/or a DAA indicator equal to A, D or B. These extracts
identified 19,946 cases with a DIG code representing alcoholism or drug addiction or a
DAA indicator showing that DAA was material. In our prior audit report, we
recommended and SSA agreed to review the 19,946 cases which we identified. In this
audit, in order to determine whether DAA reviews were completed, we randomly
sampled and reviewed 100 of the 19,946 cases identified in our prior audit.


                                      SAMPLE RESULTS
      Population size                                                           19,946
      Sample size                                                                  100
                  Attribute Projection – MBR/SSR Not Updated
      Sampled cases where the MBR or SSR was not                                     14
      updated to show the individuals’ new disabling
      condition
      Projection of beneficiaries whose records were                              2,792
      not updated
      Projection lower limit                                                      1,730
      Projection upper limit                                                      4,189
       Note: All projections are at the 90-percent confidence level.




1
  “Implementation of Drug Addiction and Alcoholism Provisions of Public Law 104-121” (A-01-98-61014)
issued in May 2000.


Follow-up Review of SSA’s Implementation of DAA Provisions of P.L. 104-121 (A-01-01-11029)
                                                                               Appendix B
Agency Comments




Follow-up Review of SSA’s Implementation of DAA Provisions of P.L. 104-121 (A-01-01-11029)
                                          SOCIAL SECURITY

MEMORANDUM


Date:      November 26, 2001                                                        Refer To:   S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry Dye /s/
           Chief of Staff

Subject:   The Office of the Inspector General Draft Report, “Follow-up Review of SSA’s Implementation
           of Drug Addiction and Alcoholism Provisions of Public Law 104-121” (A-01-01-11029)—
           INFORMATION


           Our comments on the subject report are attached. Staff questions may be referred to Odessa J.
           Woods on extension 50378.

           Attachment:
           SSA Comments




           Follow-up Review of SSA’s Implementation of DAA Provisions of P.L. 104-121 (A-01-01-11029)   B-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, "FOLLOW-UP
REVIEW OF SSA’S IMPLEMENTATION OF DRUG ADDICTION AND
ALCOHOLISM PROVISIONS OF PUBLIC LAW 104-121" (A-01-01-11029)


Thank you for the opportunity to comment on the draft report.

Recommendation

When conducting the next scheduled continuing disability review, SSA should ensure diagnosis
codes are updated to show the proper diagnosis.

SSA Comment

We agree that the Master Beneficiary Record/Supplemental Security Record should be updated
to show the beneficiaries' current disabling condition. SSA’s Office of Disability will arrange a
meeting of involved components in November 2001 to discuss the ways in which this can be
accomplished, including the recommendation made by the OIG.




Follow-up Review of SSA’s Implementation of DAA Provisions of P.L. 104-121 (A-01-01-11029)     B-2
                                                                               Appendix C
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Director, Disability Program Audit Division, (617) 565-1819

   Judith Oliveira, Acting Deputy Director, (617) 565-1765

Staff Acknowledgments

In addition to those named above:

   David Mazzola, Auditor

   Katie Hallock, Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-01-01-11029.




Follow-up Review of SSA’s Implementation of DAA Provisions of P.L. 104-121 (A-01-01-11029)
                           DISTRIBUTION SCHEDULE

                                                                             No. of
                                                                            Copies

Commissioner of Social Security                                                1
Management Analysis and Audit Program Support Staff, OFAM                     10
Inspector General                                                              1
Assistant Inspector General for Investigations                                 1
Assistant Inspector General for Executive Operations                           3
Assistant Inspector General for Audit                                          1
Deputy Assistant Inspector General for Audit                                   1
 Director, Systems Audit Division                                              1
 Director, Financial Management and Performance Monitoring Audit Division      1
 Director, Operational Audit Division                                          1
 Director, Disability Program Audit Division                                   1
 Director, Program Benefits Audit Division                                     1
 Director, General Management Audit Division                                   1
Issue Area Team Leaders                                                       25
Income Maintenance Branch, Office of Management and Budget                     1
Chairman, Committee on Ways and Means                                          1
Ranking Minority Member, Committee on Ways and Means                           1
Chief of Staff, Committee on Ways and Means                                    1
Chairman, Subcommittee on Social Security                                      2
Ranking Minority Member, Subcommittee on Social Security                       1
Majority Staff Director, Subcommittee on Social Security                       2
Minority Staff Director, Subcommittee on Social Security                       2
Chairman, Subcommittee on Human Resources                                      1
Ranking Minority Member, Subcommittee on Human Resources                       1
Chairman, Committee on Budget, House of Representatives                        1
Ranking Minority Member, Committee on Budget, House of Representatives         1
Chairman, Committee on Government Reform and Oversight                         1
Ranking Minority Member, Committee on Government Reform and Oversight          1
Chairman, Committee on Governmental Affairs                                    1
Ranking Minority Member, Committee on Governmental Affairs                   1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                 1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                             1
President, National Council of Social Security Management Associations,
  Incorporated                                                               1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                               1
Social Security Advisory Board                                               1
AFGE General Committee                                                       9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                   Office of Executive Operations
OEO supports the OIG by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and human
resources. In addition, this office is the focal point for the OIG’s strategic planning function and
the development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
